                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: A06100048
                                                                                  11          Page 1 of 1



         An allegation was received that a CAREER proposal' contained text duplicated from a
         previously submitted NSF source proposal.2 The subject admits that the text is duplicative,
         appearing without the use of direct quotes or a citation to the source, but claims that the source
         proposal cop1 gave her a copy of an early version of the proposal to help develop her own
         research ideas and methods. The subject incorporated text without taking care to rewrite the
         material. The subject concedes the need to quote and cite the source. A reminder letter to the
         subject on the proper standards of scholarship, should be sufficient to protect NSF interests.

         Accordingly, this case is closed.




              Redacted.
          2
              Redacted.


I
NSF OIG Form 2 (1 1/02)
